                              CLOSEOUT FOR M93020016

       On 19 February 1993 Dr. 0 program             , manager in the Small Business
Innovation Research Program (SBIR) in the Division o                      w                 l
o            f the Directorate of -informed              OIG that he had received allegations
                               , the subject. The subject had received m N S F awards,-
                                                                        SBIR awards entitled
                                                                      ." Several months after
the close of the phase I1 award the anonymous complainant contacted the program officer and
alleged that

1.     the subject had claimed to NSF that he had a Ph.D. when he did not.

2.     the subject had "willfully falsifried] data, reus[ed] old data" and falsely claimed to be
       using equipment for his research that was not in use.

3.     funds from the subject's grants had benefited a company owned by a '             national."

         OIG reviewed the two award jackets and found that the subject claimed to have only a
B.S. in           OIG contacted the degree-granting institution and confirmed that the subject
had indeed received the degree he claimed. OIG determined that there was no substance to the
first allegation.

        OIG's review of the awards and the Final Project Report submitted for each did not
provide support for either the second or third allegation. The volume of detailed material
submitted by the subject and the number of independent consultants and collaborators who
assisted in the research and provided written reports on these projects suggest that considerable
collaborative effort went into the successful conduct of this project. In a situation involving a
number of independent collaborators and consultants it would be difficult to coordinate the
fabrication of data or the falsification of collected data.

       While the initial testing of the control system occurred in the pilot-scale equipment
alleged to be unused, the final testing did not occur in that equipment, which was probably
unused at the time of the complainant's allegation. It is likely that the pilot-scale equipment
remained idle in the later part of the subject's research project. It is even more likely that this
equipment lay unused after the project was completed. In the complainant's sole conversation
with the program officer, he did not provide a reason for his concerns about the allegedly idle
equipment, identify who received the allegedly false claim about the equipment, or provide a

                                           Page 1 of 2                                    M93-16
                              CLOSEOUT FOR M93020016

way for OIG to contact him for further information. OIG was unable to independently uncover
any support for the second allegation. Without additional information from the complainant OIG
determined that there was no substance to the second allegation.

         The phase I1 Final Project Report includes a signed joint venture agreement between the
subject and an individual with the same last name as the one identified by the anonymous
complainant as a -'          national." The individual signing the joint venture was the president
of the company identified by the complainant. OIG learned that this company was incorporated
in the same state in which the subject's research was conducted. It is Likely that any expenditure
of grant funds occurred in that state, and therefore complied with the SBIR program requirement
that all research under the NSF award must be performed in the United States or its territories.
There is no program stipulation about the nationality of the participants. It was apparent from
the joint venture agreement and the company's involvement in the subject's research that the
company's business will directly benefit from the control system that was developed under the
subject's SBIR awards. The president agreed to commit v             e     r a period of L)years
as follow-on funding for instrument development. In return the subject, as president of his own
company, agreed to assign all licensing for the control system to the United States-based
corporation for that m y e a r period. OIG determined there was no support for the third
allegation.

       OIG concluded that the anonymous complainant has made several allegations that did not
have substance.

       OIG closed this case without further action.


cc:    Staff Scientist, Deputy AIG-Oversight, AIG-Oversight, IG




                                          Page 2 of 2
